APPELLATE LITIGATION PROGRAM
Erica J. Hashimoto
Director

Steven H. Goldblatt
Of Counsel

Lauren Bateman
Joshua Marcin
Nicolas Sansone
Supervising Attorneys
Daurie Simmons
Office Manager

June 7, 2021
Scott S. Harris
Clerk of Court
United States Supreme Court
One First Street, N.E.
Washington, DC 20543
RE:

Connell v. New York, No. 20-7210

Dear Mr. Harris:
I represent Petitioner Tesfa Connell in the above-captioned case. The petition for a writ of
certiorari was docketed on February 17, 2021, and the response was filed on June 4, 2021. By this
letter, Mr. Connell waives the 14-day waiting period for a reply brief under Rule 15.5 and asks
that the petition and response be distributed on the next scheduled distribution date for in forma
pauperis petitions—June 9, 2021—for consideration at the June 24 conference. He further
requests that his forthcoming reply brief be distributed upon its submission to the Court.
Sincerely,
Erica Hashimoto
Director
Georgetown Law Center, Appellate Litigation Clinic
VIA E-FILING

111 F Street, NW, Suite 306, Washington, DC 20001-2095
PHONE 202-662-9555 EMAIL lawapplit@georgetown.edu

